    EXAMINATION OF THE 

  DEPARTMENT OF JUSTICE'S 

FISCAL YEAR 2012 COMPLIANCE 

WITH THE IMPROPER PAYMENTS 

  INFORMATION ACT OF 2002 


     u.s.  Department of Justice
    Office of the Inspector General

            Report 13-16 

            March 2013 

EXAMINATION OF THE DEPARTMENT OF JUSTICE’S
     FISCAL YEAR 2012 COMPLIANCE WITH THE
  IMPROPER PAYMENTS INFORMATION ACT OF 2002


                        EXECUTIVE SUMMARY

      The Office of the Inspector General (OIG) examined the
U.S. Department of Justice’s (Department) compliance with Office of
Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments, and OMB Circular
A-136, Financial Reporting Requirements, for the fiscal year ended
September 30, 2012. This examination is required by the Improper
Payments Information Act of 2002, as amended by the Improper Payments
Elimination and Recovery Act of 2010.

Office of the Inspector General Examination Approach

      The OIG conducted the examination and prepared the report in
accordance with attestation standards established by the American Institute
of Certified Public Accountants and those contained in Government Auditing
Standards, issued by the Comptroller General of the United States. In
determining the level of assurance, we considered the requirements outlined
in OMB Circular A-123, Appendix C, and OMB Circular A-136, the
expectations of the users of the report, and any potential risks associated
with performing the engagement. We performed a compliance examination
due to the higher level of assurance it provides, the result of which is the
expression of an opinion.

     The OIG is not independent with respect to amounts pertaining to OIG
operations that are presented in the improper payments reporting.
However, the amounts included for the OIG are not material to the
Department’s improper payments reporting, and the OIG is organizationally
independent with respect to all other aspects of the Department’s activities.

      The OIG conducted the examination to determine compliance with the
requirements, as set forth in OMB Circular A-123, Appendix C, and
OMB Circular A-136. The examination was comprised of the OIG gaining an
understanding of the Department and component level controls through
inquiry procedures, a review of documentation supporting the information




                                    -i–
published in the Department’s Performance and Accountability Report (PAR),
as well as a re-performance of calculations computed by the Department.

Conclusion and Recommendations

       We found that the Department complied, in all material respects, with
the Improper Payments Information Act of 2002, as amended, for the fiscal
year ended September 30, 2012. While we did not identify any significant
deficiencies or material weaknesses, we did identify one matter to consider
for future PAR reporting, presented as a comment in Appendix I. This
comment relates to the internal controls over financial reporting. This
comment does not materially affect the compliance report but rather the
completeness and accuracy assertions of the Department’s reporting. The
comment has been presented along with two recommendations to enhance
future reporting of improper payments and recoveries. These
recommendations include that the Department perform analytical procedures
to identify unusual fluctuations that could indicate a reporting error and that
the Department perform a completeness review of reporting components’
data.




                                     - ii –
   EXAMINATION OF THE DEPARTMENT OF JUSTICE’S 

      FISCAL YEAR 2012 COMPLIANCE WITH THE 

   IMPROPER PAYMENTS INFORMATION ACT OF 2002 



                               TABLE OF CONTENTS


                                                                                          PAGE



BACKGROUND .................................................................................... 1 


INDEPENDENT REPORT ON THE DEPARTMENT OF JUSTICE’S
    FISCAL YEAR 2012 COMPLIANCE WITH THE
    IMPROPER PAYMENTS INFORMATION ACT OF 2002 .......................... 5 


APPENDIX I: COMMENT AND RECOMMENDATIONS.................................. 7 


APPENDIX II: IMPROPER PAYMENTS REPORTING IN THE
    FISCAL YEAR 2012 DEPARTMENT OF JUSTICE PERFORMANCE AND
    ACCOUNTABILITY REPORT .......................................................... 15 


APPENDIX III: OFFICE OF THE INSPECTOR GENERAL ANALYSIS AND 

    SUMMARY OF ACTIONS NECESSARY TO CLOSE THE REPORT............ 27 

This page intentionally left blank.
Background

      On July 22, 2010, the President of the United States signed into law
the Improper Payments Elimination and Recovery Act of 2010 (IPERA),
which amended the Improper Payments Information Act of 2002 (IPIA).1
IPERA expanded the scope of the IPIA beyond commercial payments to
include more payment types, such as grants and cooperative agreements,
and benefit and assistance payments. In fiscal year 2012, federal agencies
reported $108 billion in estimated improper payments. IPERA requires
agencies, including the Department of Justice (Department), to annually
report information on improper payments to the President and Congress
through their Performance and Accountability Report (PAR).

      Agencies are required to assess every federal program and dollar
disbursed for improper payment risk, measure the accuracy of payments
annually, and initiate program improvements to ensure payment errors are
reduced. Specifically, they are required to review all programs and activities
and identify those that are susceptible to significant erroneous payments.
For those programs and activities that are deemed susceptible to significant
erroneous payments, the agency must obtain a statistically valid estimate of
the annual amount of improper payments and thereafter implement a plan
to reduce erroneous payments. The agency must annually report and note
in the PAR the progress of reducing estimates of improper payments in its
programs and activities. In addition, IPERA requires agencies to conduct
payment recapture audits for each program and activity that expends
$1 million or more annually, if conducting such audits is cost-effective.
Agencies must have a cost-effective program of internal controls to prevent,
detect, and recover overpayments resulting from payment errors. All
agencies are required to establish annual targets for their payment
recapture audit programs that will drive their annual performance.

      Each fiscal year, the Office of the Inspector General (OIG) of each
agency is responsible for determining whether the agency is in compliance
with the improper payment reporting requirements, as set forth in the Office
of Management and Budget (OMB) Circular A-123, Management’s
Responsibility for Internal Control, Appendix C, Requirements for Effective
Measurement and Remediation of Improper Payments; and OMB
Circular A-136, Financial Reporting Requirements. The OIG is required to
complete its assessment and submit a report, within 120 days after issuance
of the PAR, on its determination to the head of the agency, the Committee

      1
        Unless otherwise noted, the usage of the term “IPIA” will imply “IPIA, as amended
by IPERA.”



                                          - 1 -

on Homeland Security and Governmental Affairs of the U.S. Senate, the
Committee on Oversight and Government Reform of the U.S. House of
Representatives, the Comptroller General, and the Controller of the Office of
Management and Budget.

      The OIG’s responsibility, as described in OMB Circular A-123,
Appendix C, and as related to a compliance examination, is to determine an
agency’s compliance with IPIA. Compliance with IPIA means that the
Department has: (1) published a PAR for the most recent fiscal year and
posted that report and any accompanying materials required by OMB on the
Department’s website; (2) conducted a program-specific risk assessment for
each program or activity that conforms with IPIA (if required); (3) published
improper payment estimates for all programs and activities identified as
susceptible to significant improper payments under its risk assessment (if
required); (4) published programmatic corrective action plans in the PAR (if
required); (5) published, and has met, annual reduction targets for each
program assessed to be at risk and measured for improper payments (if
required); (6) reported a gross improper payment rate of less than
10 percent for each program and activity for which an improper payment
estimate was obtained and published in the PAR (if required); and
(7) reported information on its efforts to recapture improper payments. If
the OIG identifies any non-compliance with the items noted above, these
issues are to be documented in the Independent Report on the Department
of Justice’s Fiscal Year 2012 Compliance With the Improper Payments
Information Act of 2002 and the Department would be deemed to be non-
compliant with IPIA.

      Additionally, OMB Circular A-123, Appendix C, states that the OIG
“should also evaluate the accuracy and completeness of agency reporting,
and evaluate agency performance in reducing and recapturing improper
payments.” The Circular goes on to say, “As part of its report, the agency
Inspector General should include its evaluation of agency efforts to prevent
and reduce improper payments, and any recommendations for actions to
further improve the agency's or program's performance in reducing improper
payments.” We considered these additional procedures while performing the
examination. The one reporting matter that was identified from these
additional procedures, however, did not affect the determination of
compliance in the Independent Report on the Department of Justice’s Fiscal
Year 2012 Compliance With the Improper Payments Information Act of
2002, but is documented in Appendix I: Comment and Recommendations.

      The Department reviewed the requirements of IPIA, as well as OMB
Circular A-123, Appendix C, and OMB Circular A-136, to collect and publish
information on the Department’s improper payments as of September 30,


                                    - 2 -

2012 in its PAR (item 1 above). The Department conducted a risk
assessment (item 2 above) of its five self-identified programs to determine if
any were deemed to be susceptible to significant improper payments,
defined as gross annual improper payments in the program exceeding the
OMB thresholds of both 2.5 percent of program outlays and $10 million, or
$100 million. Based on the results of its risk assessment, the Department
determined that it did not have any programs that were susceptible to
significant improper payments as of September 30, 2012. As a result, the
Department was not required to include the following information in its PAR:
improper payment estimates, programmatic corrective actions plans, annual
reduction targets for programs at risk, and a gross improper payment rate
for each program and activity at risk (items 3 through 6 above). The
Department reported on its efforts to recapture improper payments in the
PAR (item 7 above).




                                    - 3 -

This page intentionally left blank.




               - 4 -

                                             U.S. Department of Justice

                                             Office of the Inspector General



                                             Washington, D.C. 20530



       Independent Report on the Department of Justice’s 

             Fiscal Year 2012 Compliance With the 

          Improper Payments Information Act of 2002 




United States Attorney General
U.S. Department of Justice

       We have examined the Department of Justice’s (Department)
compliance with Office of Management and Budget (OMB) Circular A-123,
Management’s Responsibility for Internal Control, Appendix C, Requirements
for Effective Measurement and Remediation of Improper Payments; and OMB
Circular A-136, Financial Reporting Requirements, pursuant to the Improper
Payments Information Act of 2002, as amended by the Improper Payments
Elimination and Recovery Act of 2010, for the fiscal year ended
September 30, 2012. Management is responsible for the Department's
compliance with those requirements. Our responsibility is to express an
opinion on the Department's compliance based on our examination.

      Our examination was conducted in accordance with attestation
standards established by the American Institute of Certified Public
Accountants and standards applicable to attestations contained in
Government Auditing Standards, issued by the Comptroller General of the
United States and, accordingly, included examining, on a test basis,
evidence about the Department's compliance with the requirements
described in the preceding paragraph and performing such other procedures
as we considered necessary in the circumstances. We believe that our
examination provides a reasonable basis for our opinion. Our examination
does not provide a legal determination on the Department's compliance with
specified requirements.

      In our opinion, the Department complied, in all material respects, with
the aforementioned requirements for the fiscal year ended September 30,
2012.




                                    - 5 -

Independent Report on the Department of Justice’s Fiscal Year 2012 Compliance
With the Improper Payments Information Act of 2002
Page 2

      In planning and performing our examination of the Department’s
compliance with OMB requirements, we considered the Department's
internal control over compliance (internal control) as a basis for designing
our examination procedures for the purpose of expressing our opinion, but
not for the purpose of expressing an opinion on the effectiveness of the
Department's internal control. Accordingly, we do not express an opinion on
the effectiveness of the Department's internal control.

      A deficiency in internal control exists when the design or operation of a
control does not allow management or employees, in the normal course of
performing their assigned functions, to prevent, or detect and correct
misstatements on a timely basis. A material weakness is a deficiency, or
combination of deficiencies, in internal control that results in more than a
remote likelihood that a material misstatement of the subject matter will not
be prevented or detected and corrected on a timely basis.

       Our consideration of internal control was for the limited purpose
described in the fourth paragraph and was not designed to identify all
deficiencies in internal control that might be deficiencies, significant
deficiencies, or material weaknesses. We did not identify any deficiencies in
internal control that we consider to be material weaknesses, as defined
above.

      During our examination, we noted one reporting matter that resulted
in two recommendations for your consideration in Appendix I. The comment
and recommendations, which have been discussed with the appropriate
members of the Department’s management, are intended to enhance future
reporting of improper payments and recoveries.




Mark L. Hayes, CPA, CFE
Director, Financial Statement Audit Office
Office of the Inspector General
U.S. Department of Justice

March 7, 2013




                                         - 6 -

                                                             APPENDIX I

              COMMENT AND RECOMMENDATIONS

       The enactment of the Improper Payments Elimination and Recovery
Act of 2010 (IPERA), which amended the Improper Payments Information
Act of 2002 (IPIA), requires the Department of Justice to identify and report
improper payments in its Performance and Accountability Report (PAR) and
the Office of the Inspector General (OIG) to review agency reporting in the
PAR to determine compliance with the IPIA. The seven requirements
outlined in the IPIA are codified in Office of Management and Budget (OMB)
Circular A-123, Management’s Responsibility for Internal Control, Appendix
C, Requirements for Effective Measurement and Remediation of Improper
Payments, and OMB Circular A-136, Financial Reporting Requirements. OMB
suggested additional procedures the OIG should consider performing during
its review, including evaluating the accuracy and completeness of agency
reporting and the agency’s efforts in preventing and reducing improper
payments, and providing recommendations for improvements.

       We conducted an examination of the Department’s compliance with
the IPIA. We determined the Department complied, in all material respects,
with the IPIA. While we did not identify any significant deficiencies or
material weaknesses, we noted one matter for the Department to consider
for future reporting, presented below as a comment, with two
recommendations. We have discussed this matter with the appropriate
members of the Department and their response is included after each
recommendation.




                                    - 7 -

Comment Number 1: Internal Controls over Financial Reporting
Need to be Strengthened

      During our examination of the Department’s fiscal year (FY) 2012 PAR,
we noted that, while the Department is materially in compliance with the
requirements, erroneous information was reported in the following tables of
Appendix A.

Table 1A - Payment Recapture Audit Reporting Scope

     Table 1A, Payment Recapture Audit Reporting Scope, as shown in
Appendix II, did not accurately report the Amount Subject to Review for
FY 2012 Reporting, for two DOJ Mission-Aligned Program payment types:

     1. The amount of the Administrative, Technology, and Other
        program’s custodial payments subject to review was incorrectly
        reported as $5,955,270,022. The amount reported for this type of
        payment should be the total non-federal custodial payments made
        by the Department and should have been $508,622,000, which
        agrees with the Transferred to the Public line in the Department’s
        FY 2012 Combined Statement of Custodial Activity. Therefore, the
        reported amount was overstated by $5,446,648,022. Since the
        Department indicates that it reviewed 100 percent of the amount
        subject to review, the Actual Amount Reviewed and Reported in
        FY 2012 is also overstated by the same amount.

     2. The amount of the Law Enforcement program’s commercial
        payments subject to review was incorrectly reported as
        $4,291,446,597. The amount reported for this type of payment
        represents an aggregation of payments made by five Department
        components: (1) the Bureau of Alcohol, Tobacco, Firearms and
        Explosives (ATF), (2) the Drug Enforcement Administration, (3) the
        Federal Bureau of Investigation, (4) the Offices, Boards and
        Divisions (OBDs), and (5) the United States Marshals Service.
        During the consolidation of the five components’ data, the
        $262,543,649 reported in the data call submitted by ATF was
        incorrectly entered in the roll-up as $26,543,649 resulting in an
        incorrect total. The aggregated amount that should have been
        reported for this type of payment is $4,527,446,597. Therefore,
        the reported amount was understated by $236 million. Since, the
        Department indicates that it reviewed 100 percent of the amount
        subject to review, the Actual Amount Reviewed and Reported in FY
        2012 is also understated by the same amount.


                                   - 8 -

       The Department utilizes the amounts presented in Table 1A as the
base (denominator) in its calculation of the program’s potential improper
payment rate, which is used to determine if the program is susceptible to
significant improper payments. Significant improper payments are defined
as gross annual improper payments in the program exceeding: (1) both 2.5
percent of program outlays and $10 million or (2) $100 million (regardless of
the improper payment percentage of total program outlays). The calculation
to determine the potential improper payment rate is:

             Improper Payments Identified for Recovery
      Amount Subject to Review for FY 2012 Reporting (Table 1A)

      Therefore, if the amounts reported in Table 1A are misstated, this
calculation will be incorrect, which could affect the Department’s
determination of whether the program is susceptible to significant improper
payments and requires additional procedures to be performed. For FY 2012,
however, this error did not impact the determination that the Department
did not have any programs susceptible to significant improper payments.

Table 3 - Aging of Cumulative Outstanding Overpayments

        Table 3, Aging of Cumulative Outstanding Overpayments, as shown in
Appendix II, did not accurately classify the aging of outstanding
overpayments for two Department Mission-Aligned Programs’ commercial
payments. The Department utilizes tracking logs which are submitted by the
individual components to identify improper payment information on a
quarterly basis. The raw data in the OBDs’ tracking log was incomplete (that
is, left blank) for the "Date Improper Payment Identified" field for 18
Litigation program transactions and 6 Administrative, Technology and Other
program transactions. The blank fields resulted in automatic spreadsheet
calculations miscalculating the length of time the overpayments were
outstanding, resulting in an overstatement of the Amount Outstanding (Over
1 Year) in the PAR’s table, as well as a corresponding aggregate
understatement in the table’s Amount Outstanding (0 to 6 months) and
(6 months to 1 year).




                                    - 9 -

      Period           Administrative,                     Litigation
   Outstanding      Technology, and Other
0 to 6 months      ($21,289) understatement       ($43,623) understatement
6 months to 1 year        no misstatement          ($1,731) understatement
Over 1 year         $21,289 overstatement          $45,354 overstatement

      As a result of the misstatements noted in the above table, the
balances reported in the PAR were impacted as follows:

         0 to 6 months: The amount reported in the PAR, $356,576, was
          understated by 18 percent.
         6 months to 1 year: The amount reported in the PAR, $115,824,
          was understated by 2 percent.
         Over 1 year: The amount reported in the PAR, $2,528,292, was
          overstated by 3 percent.

Table 5 - Sources of Identifying Overpayments

       Table 5, Sources of Identifying Overpayments, as shown in Appendix
II, did not accurately classify the source of the improper payments identified
and recovered in the current year.

      1. The Department entered Improper Payments Identified from
         Internal Efforts as $816,338 and Improper Payments Identified
         from Auditors as $56,697 for the Federal Bureau of Prisons in its FY
         2012 Tracking Log Summary, which is used to determine the
         consolidated amount that is reported in Table 5. However, when
         the OIG utilized the Federal Bureau of Prisons’ Tracking
         Spreadsheets to reperform the Department’s compilation of the
         table we noted that the full amount, $873,035
         ($816,338+$56,697), was reported by the Federal Bureau of
         Prisons as Internal Efforts. As a result, the current year Improper
         Payments Identified from Internal Efforts in Table 5 was
         understated by $56,697, while Identified by Auditors was
         overstated by $56,697. The misclassification between the sources
         of Internal Efforts and Auditors also occurred in the Improper
         Payments Recovered column for the current year.

      2. The Department also entered Improper Payments Recovered by
         Auditors for the OBDs, as $299,380 in its FY 2012 Tracking Log
         Summary. However, when the OIG engagement team utilized the
         OBDs’ Tracking Spreadsheets to reperform the compilation of the
         table we noted the amount of Improper Payments Recovered by


                                    - 10 -
        Auditors as $298,832. As a result, the amount of Improper
        Payments Recovered by Auditors in Table 5 was overstated by an
        additional $548.

      OMB Circular A-123, Management's Responsibility for Internal Control,
Appendix A, Internal Controls over Financial Reporting, states “Effective
internal control over financial reporting provides reasonable assurance that
misstatements, losses, or noncompliance with applicable laws and
regulations, material in relation to financial reports, would be prevented or
detected.”

      OMB Circular A-123, Management's Responsibility for Internal Control,
Appendix A, Internal Controls over Financial Reporting, III. Assessing
Internal Control over Financial Reporting, C. Evaluate Internal Controls at
the Process, Transaction, or Transaction Level, 3. Understand the Financial
Reporting Process, states “Obtaining an understanding of the process and
workflow that links the accounting system to the financial report(s). Often
times, financial information is not directly transferable from the accounting
system to the financial report, but requires intervening calculations,
summarizations, etc. This represents another point where errors can be
introduced into the financial report, and it is important to understand where
such errors could occur and what control objectives and control techniques
can prevent or detect these errors.” (Emphasis added)

   Through discussions with the Department, we determined the following
are the causes to the conditions previously listed:

  	 Due to the receipt of large amounts of data and the limited time frame
     for compilation and reporting, sufficient time did not exist to
     incorporate updates in the Department’s data. Therefore, incomplete
     data fields and miscalculations remained undetected and contributed
     to incorrect reporting in the PAR.

  	 The compilation of the component’s information at the Department
     level is manually intensive, which is inherently more risky than an
     automated compilation process. The additional risk can only be
     mitigated by strong and redundant controls. As a result of the manual
     process and manual controls, errors went undetected and were
     reported in the PAR.




                                    - 11 -
Recommendations:

We recommend that the Department:

1. Perform additional analytical procedures, across fiscal years, on the
   information reported in the Performance and Accountability Report to
   identify unusual fluctuations that could indicate a reporting error.

   Management’s Response:

   Concur. The purpose of Table 1A in the Performance and Accountability
   Report is to identify the scope of the Department’s FY 2012 payment
   recapture audit reporting, i.e., the percent of payments reviewed for
   improper payments out of the amount of payments subject to review for
   FY 2012 reporting. The reporting error pertaining to the amount of
   payments subject to review for two DOJ Mission-Aligned Program
   payment types had no effect on the reported percent of payments
   reviewed for the two payment types, as the Department’s processes
   include a 100 percent review of all payments subject to review. Also, as
   the OIG reported, the reporting error did not impact the determination
   that the Department did not have any programs susceptible to significant
   improper payments. Nonetheless, we have implemented procedures to
   identify unusual fluctuations across fiscal years in an effort to prevent this
   type of reporting error in the future.

2. Enhance the quality control review process to ensure accurate data is
   reported and perform a completeness check of the data fields provided in
   the components’ tracking spreadsheets to identify any “blank” fields that
   cause incorrect calculations or result in information not being pulled into
   the consolidated file.

   Management’s Response:

   Concur. With regard to the Aging Schedule, the effect of the 24 blank
   fields in one component’s tracking spreadsheet was insignificant overall.
   The adjusted aging using actual data showed that the Department’s
   performance with regard to recovering outstanding overpayments in a
   timely manner is better than the performance reported in the PAR;
   i.e., the adjusted aging resulted in 2 percent less of the total outstanding
   overpayments being in the category “Amount Outstanding Over 1 Year”
   and 2 percent more being in the category “Amount Outstanding 0 to
   6 Months” (the percent in the category “Amount Outstanding 6 Months to
   1 Year” remained unchanged). While these results are favorable to the




                                     - 12 -
Department, we have taken steps to prevent this type of error in the
future.




                                - 13 -
This page intentionally left blank.




              - 14 -
                                                                                                       APPENDIX II

                 IMPROPER PAYMENTS REPORTING IN THE 

                FISCAL YEAR 2012 DEPARTMENT OF JUSTICE 

               PERFORMANCE AND ACCOUNTABILITY REPORT

The Improper Payments Information Act of 2002 (IPIA), as amended by the Improper Payments Elimination
and Recovery Act of 2010 (IPERA), requires agencies to annually report information on improper payments to
the President and Congress through their annual Performance and Accountability Report. In accordance with
that requirement and the implementing guidance in OMB Circular A-123, Appendix C, Requirements for
Effective Measurement and Remediation of Improper Payments, and OMB Circular A-136, Financial
Reporting Requirements, the Department provides the following improper payments reporting details.

Item I. Risk Assessment. Briefly describe the risk assessment performed (including the risk factors
examined, if appropriate) subsequent to completing a full program inventory. List the risk-susceptible
programs (i.e., programs that have a significant risk of improper payments based on OMB guidance
thresholds) identified by the agency risk assessment. Highlight any changes to the risk assessment
methodology or results that occurred since the FY 2011 IPIA report.

In accordance with the IPIA, as amended by the IPERA, and the April 2011 OMB implementing guidance,
OMB Circular A-123, Appendix C, the Department assessed its programs and activities for susceptibility to
significant improper payments. The Department’s top-down approach for assessing the risk of significant
improper payments allows for the analysis and reporting of results by the Department’s five mission-aligned
programs – Law Enforcement; Litigation; Prison and Detention; State, Local, Tribal, and Other Assistance;
and Administrative, Technology, and Other. The approach promotes consistency across the Department in
implementing the expanded requirements of the IPERA.

In FY 2012, the Department disseminated an updated risk assessment survey instrument for Departmental
components to use in conducting the required risk assessment. The instrument examined disbursement
activities against nine risk factors, such as payment volume and process complexity, and covered commercial
payments, custodial payments, benefit and assistance payments, and grants and cooperative agreements.1

The Department’s risk assessment methodology for FY 2012 did not change significantly from FY 2011;
i.e., for FY 2012, the methodology again included assessing risk against various risk factors and for various
payment types. The primary difference for FY 2012 was that the Department included clarifying language in
the survey instrument to ensure components considered all questioned costs as improper payments when
conducting the required risk assessment.

The results of the FY 2012 risk assessment did not differ from FY 2011; i.e., the Department concluded
based on the results of the Department-wide risk assessment for the period ending September 30, 2012, that
there were no programs susceptible to significant improper payments, i.e., improper payments exceeding the
OMB thresholds of both 2.5 percent of program outlays and $10 million, or $100 million.

Item II. Statistical Sampling. Any agency that has programs or activities that are susceptible to
significant improper payments shall briefly describe the statistical sampling process conducted to
estimate the improper payment rate for each program identified with a significant risk of improper

1
 The nine risk factors examined during the risk assessment were Policies and Procedures; Results of OMB Circular A-123
Assessment, OIG Audits/Reviews, and other External Audits/Reviews; Corrective Actions; Results of Monitoring Activities; Results of
Recapture Audit Activities; Process Complexities; Volume and Dollar Amount of Payments; Control Risk; and Capability of
Personnel.



                                                            - 15 -
payments. Highlight any changes to the statistical sampling process that have occurred since the
FY 2011 IPIA report.

Not applicable. Based on the results of the FY 2012 Department-wide risk assessment, there were no
programs susceptible to significant improper payments. This remains unchanged from FY 2011.

Item III. Corrective Actions. Any agency that has programs or activities that are susceptible to
significant improper payments shall describe the corrective action plans for:

   A. 	 Reducing the estimated improper payment rate and amount for each type of root cause
        identified. Agencies shall report root cause information (including error rate and error amount)
        based on the following three categories: Administrative and Documentation errors,
        Authentication and Medical Necessity errors, and Verification errors. This discussion must
        include the corrective actions, planned or taken, most likely to significantly reduce future
        improper payments due to each type of error an agency identifies, the planned or actual
        completion date of these actions, and the results of the actions taken to address these root
        causes. If efforts are ongoing, it is appropriate to include that information in this section and
        to highlight current efforts, including key milestones. Agencies may also report root cause
        information based on additional categories, or sub-categories, of the three categories listed
        above, if available.

       Not applicable. Based on the results of the FY 2012 Department-wide risk assessment, there were no
       programs susceptible to significant improper payments.

   B. 	 Grant-making agencies with risk-susceptible grant programs shall briefly discuss what the
        agency has accomplished in the area of funds stewardship past the primary recipient.
        Discussion shall include the status of projects and results of any reviews.

       Not applicable. Based on the results of the FY 2012 Department-wide risk assessment, there were no
       programs susceptible to significant improper payments, to include grant programs.

Item IV. Improper Payments Reporting.

   A. 	 Any agency that has programs or activities that are susceptible to significant improper
        payments must provide the following information in a table:
           - all risk-susceptible programs must be listed whether or not an error measurement is
              being reported;
           - where no measurement is provided, the agency should indicate the date by which a
              measurement is expected;
           - if the Current Year (CY) is the baseline measurement year, and there is no Previous
              Year (PY) information to report, indicate by either “Note” or “N/A” in the PY column;
           - if any of the dollar amounts included in the estimate correspond to newly established
              measurement components in addition to previously established measurement
              components, separate the two amounts to the extent possible;
           -	 agencies are expected to report on CY activity or, if not feasible, PY activity is
              acceptable if approved by OMB. Agencies should include future year outlay and
              improper payment estimates for CY+1, +2, and +3 (future year outlay estimates should
              match the outlay estimates for those years as reported in the most recent President’s
              Budget).

       Not applicable. Based on the results of the FY 2012 Department-wide risk assessment, there were no
       programs susceptible to significant improper payments.




                                                 - 16 -
   B. 	 Agencies should include the gross estimate of the annual amount of improper payments
        (i.e., overpayments plus underpayments) and should list the total overpayments and
        underpayments that make up the current year amount. In addition, agencies are allowed to
        calculate and report a second estimate that is a net total of both overpayments and
        underpayments (i.e., overpayments minus underpayments). The net estimate is an additional
        option only and cannot be used as a substitute for the gross estimate.

       Not applicable. Based on the results of the FY 2012 Department-wide risk assessment, there were no
       programs susceptible to significant improper payments.

Item V. Recapture of Improper Payments Reporting.

   A. 	 An agency shall discuss payment recapture audit (or recovery auditing) efforts, if applicable.
        The discussion should describe the agency’s payment recapture audit program, the actions
        and methods used by the agency to recoup overpayments, a justification of any overpayments
        that have been determined not to be collectable, and any conditions giving rise to improper
        payments and how those conditions are being resolved (e.g., the business process changes
        and internal controls instituted and/or strengthened to prevent further occurrences). If the
        agency has excluded any programs or activities from review under its payment recapture audit
        program (including any programs or activities where the agency has determined a payment
        recapture audit program is not cost-effective), the agency should list those programs and
        activities excluded from the review, as well as the justification for doing so. Include in the
        discussion the dollar amount of cumulative recoveries collected beginning with FY 2004.

       The Department’s payment recapture audit program is part of its overall program of internal control
       over disbursements. The program includes establishing and assessing internal controls to prevent
       improper payments, reviewing disbursements to identify improper payments, assessing root causes of
       improper payments, developing corrective action plans, and tracking the recovery of improper
       payments and disposition of recovered funds. The Department’s top-down approach for tracking and
       reporting the results of recovery auditing activities promotes consistency across the Department in
       implementing the expanded requirements of the IPERA. In FY 2012, the Department provided
       components an updated template to assist them in analyzing root causes of improper payments and
       tracking the recovery of such payments and disposition of recovered funds.
       The root causes for overpayments other than for grants largely fell within the OMB-defined error
       category of Documentation and Administrative, as most errors were overpayments resulting from
       duplicate payments or data entry errors. Departmental components have implemented actions to
       address specific areas where improvements could be made. For example, to reduce duplicate
       payments and prevent other types of improper payments, the Drug Enforcement Administration
       (DEA) conducts data analytics on payment data entered into the Unified Financial Management
       System (UFMS) prior to processing disbursements to identify payments that, if processed, would be
       improper, e.g., payments to ineligible recipients, payments for ineligible services, and duplicate
       payments. To reduce data entry errors, the Federal Bureau of Investigation (FBI) increased its use of
       electronic billing and consolidation of invoices.

       The root causes for grant overpayments also largely fell within the Documentation and Administrative
       category, as most involved payments for which grantees did not provide sufficient documentation to
       support the payments. To reduce the risk of these types of overpayments, the Department’s granting
       components expanded training and communications informing grantees of their responsibilities related
       to receiving Federal awards. For example, the Office of Justice Programs (OJP) requires all grantees
       responsible for improper payments to submit written policies and procedures describing the internal
       controls put in place to prevent similar occurrences in the future.




                                                  - 17 -
         Departmental components have also taken actions to facilitate the recovery of improper payments.
         For example, the FBI produces an accounts receivable report to track the age and collection eiI0I1s for
         all wlCollected improper payments. TIle Bureau of Alcohol, Tobacco, Firealm s and Explosives (ATF)
         issues demand letters to debtors notifying them of the status of the debt, the date payment is due,
         where to send payment, and the collection actions the A TF can pursue to recover the debt.
         TIle Department excluded employee disbursements and intra-govelllmental payments from the scope
         of its payment recapture audit program in accordance with the IPERA and OMB implementing
         guidance. TIle Department also excluded payments to confidential infonnants because of its
         responsibility to protect sensitive law enforcement infonnation. Lastly, the Department excluded
         payments at DEA foreign offices, because the DEA obtains the selVices of the Department of State for
         cel1ifying and disbursing payments on behalf of the DEA at foreign offices.
         In accordance with the IPERA and OMB implementing guidance, the Department measured payment
         recapture perfonnance. Ba sed on perfonnance through the period ending September 30, 2012 , the
         Department achieved a payment recovery rate of93 percent for the cumulative period ofFYs 2004
         through 2012, and an annual recovery rate of 121 percent for FY 2012? In FY 20 12, approximately
         $22,400 of overpayments were detennined not to be collectable, the majority of which were due to a
         vendor's bankruptcy. Table lB provided later in tltis section provides additional detail on the
         approximate $40.5 ntillion in improper payments identified in FYs 2004 through 20 12 and the
         approximate $37.5 ntillion of recovered fimds.
     B. 	 Complete the tables below (if any of this information is not available, indicate by either " Note"
          or " N/A" in the relevant c olumn or cell) :
         Note: To allow infOimation to be easily viewable, the Department refonnatted the table in
         OMB Circular A-136 into three separate tables. Table lA provides infolllIation on the total amowlt of
         disbursements subject to review in FY 20 12, as well as the total amount reviewed under the
         Department's payment recapnrre audit program. As shown in the table, the Depal1ment reviewed
         100 percent of its FY 20 12 disbursements, except for the payments excluded from review as discussed
         in Item V.A.
                                                   Table 1A 

                                 Payment Recapture Audit Reporting Sc ope 



                                               Type of Payment                  to      i             Reviewed and
            O Mission-Aligned
             OJ                         (indudes only the       made per             FY 2012           Reported in         Percent
                                                                                                         FY 2012          Reviewed




                              I,
           Other Assistance




2 In FY 2012, thc improper paymcnts recovcred cxcttdcd thc improper paymcnts identified for recovcry duc to thc recovcry during FY
2012 of impropc-r paymcnts idcntificd in previous ycars; this sccnario resultcd in thc alUllIal recoyery ratc cxcttding 100 percent.




                                                             - 18 ­
           Table 18 provides the cmnulative results of payment recapttrre audit activities for tIle nine-year period ofFYs 2004 tlrrough 2012. As
           shown in tIle table. as of the end ofFY 2012. the Department had recovered 93 percent of the improper payments identified for recovery.
           The Depaltment reported a cmnulative recovery rate of 86 percent in its FY 20 11 PAR. As shown in the table, the cmnulative recovery
           rate for grants was 79 percent, while the cumulative recovery rate for all otIler types of payments ranged from 90 to 100 percent. The
           lower recovery rate for grants is attributed in part to factors that extend the time frame for receiving recovered grant funds. For example,
           some grantees have been placed on multi-year repayment progralllS based on ability to pay and other factors.

                                                                                           Table 18

                                                                                                           'AUdi~~i~===::::;=~
                                                                                                                                     Recovery                                    Percent
                                                                                                                                        Rate                                 Outstandin!=j
                                                                                                                                    (Percent 01                               (percent 01
                                                                                                                                    Cumulative                                Cumulative
                                                                                                                                      Improper                                  Improper
                                                                                                                                     Payments                                  Payments
                                                                                              Cumulative                           Recovered out                            Outstanding out
                                                                           Cumulative          Improper                            of Cumulative                             of Cumulative
                                                                            Improper           Payments         Cumulative            Improper           Cumulative             Improper
                                        Type of Payment                    Payments           Determined         Improper            Payments             Improper             Payments

                                                                                                               ~-I-..1Id~e"~Ii~fied 98f"'% .j.c~P!!'!!Y:~ ~'~ts!!l:-l--_ld!!en!!':2ifled~f[~",..l
                                                                                                                                 "'*b-                 S':~4 41                             %
  DOJ Mission·Aligned           (includes only the types made per
                                                                          Ide::i::;;           Naito be
            " a~ Other              ,,
 L,w'
I ~'~'e, ~""":   I,ib,', ,,'"
  Other Assistance
                                                                               B+=d~ ,::~~~~
                                                                                   I~~ '           ,m
                                                                                                    ",
                                                                                                                                               79%         I',                           21 %

                                                                                                                    mtrot;;,;t--"'""::;£'t-~""",~+--"""%
I Pri"",,,"" ,         ,
 To'"                                                                                                                                                 10 iH
                                                                                                                                                       7



 3 hllpropcr payment~ identified for recovery do nOT include all qne.<>tiolH:d co~t~. When que~tioned co~ts are identified in an DIG andit report or through some other means.
 Depart:mentalmanagemelll initiates a process to validate whether the co~t~ in question were inlprOpcr payments; e.g.. the Department will requc:st additional support frOl1l grantees
 for transactions dlat. al the tinK: of audit, were not supported by adequate dOCulllelllatioli. The validation process can take month~, and in r.ome cases years, TO compleTe.
 Therefore, for paymelll r«aplure audit reporting pmposes, improper payments identified for recovery include only the quc:stioned costs for which Depanmental managenlent has
 cOl1lpleted the validation proce~~ and detCTInined that The inClUTM costs should nOT have been charged to The Govemment.



                                                                                       - 19 ­
                 Table Ie provides the results of payment recapnlre audit activities separately by current year (FY 2012) and previous years (FYs 2004
                 through 2011 combined). As shown in the current year section of the table, the inlproper payments recovered for two programs - Law
                 Euforcement and State, Local, Tribal. and Other Assistance - exceeded the improper payments identified for recovery due to the
                 recovery during FY 2012 of improper payments identified in previous years.

                                                                          Table 1C 

                                              Payment Recapture Audit Reporting by Current Year and Previous Years 



                                                                                         IcY""2'                                                                         h20111
                                                                       Recovery                                                           Percent
                                                                         Rate                          Percent of                     OUtstanding
                                                                      (Perce nt of                     Improper                         (Percent of
                                                                     Current Year                      Payments                        Current Year
                                                                       Improper                       Determined                         Improper
                                                                       Payments                        Not to be                         Payments
                                                                      R"""""'"                        Collectable                      Out3landing
                            Type of       Improper                   out of Currenl    Improper          out of                       001of Current
                            Payment       Payments                   Year Improper     Payments        Improper                       Year Improper      Improper
          DOJ            (includes only   Identified   Improper       Payments        Determined       Payments       Improper           Payments        Payments       Improper
                        the types made

                                          ~                          ~
    Mission-Aligned                                                                    Not to be     Identified for                    ldenbfied for   Identified for   paymen
                                                                                                                                                                             ~


    Technology,
                         """ ,
                                                  10
                                                       P :i
                                                        :

                                                               10              NIA
                                                                                         I
                                                                                                10
                                                                                                $0
                                                                                                                0%
                                                                                                                NIA
                                                                                                                      ~$0
                                                                                                                                                4%
                                                                                                                                                NIA
                                                                                                                                                       -m,        10              10
I eod OIh"
                                  ,                                           99%               15              0%         12,943               1%
IL,w                    Commercial                             72            145%                               1%    ,.         -,          (46%)

    Stale, l ocal,      Benefits and              10           10              NIA              10              NIA              $0             NIA         $10,000        $10,000
    Tribal, and            ,
    Other                         ,               10           $0              NIA              10              NIA           $0                NIA
    Assistance          Grants and        $2,523,692   $3,363, 168           133%               $0              0%    ($839,476)             (33%)      $6,4 35,379     $3.712 .556
                        Cooperative

I   Po"",,,""           Commercia!                                            87%               $0              0%                             13%
             ,
         I                                 ~~                                               ,                              [ill[                                          ~



                                                                                       - 20 ­
          If an agency has a payment recapture audit program in place, then the agency is required to establish annual targets to drive
          their annual performance. The targets shall be based on the rate of rec overy. Agenc ies are expected to report current year
          amounts and rates, as well as recovery rate targets for three y ears .

          Table 2 provides current year (FY 20 12) payment recapnrre audit activities infonnation, cumulative infonnation (FYs 2004 through 20 12),
          and recovery rate targets for tlrree years. As mentioned, the lower cillllulative recovelY rate for grants is attributed in part to factors that
          extend the time fra me for receiving recovered grant funds. In FY 2013, tile Department will continue focusing on improving the recovery
          rate for grants and sustaining the high recovery rates for all other types of payments.

                                                                                      Table 2 

                                                                    Improper Payments Recovery Rates and Targets 





                                                                          Payments                                           Payments
                                                                          Identified       Improper                          Identified    Improper
DOJ Mission,Aligned                          of Payment                      for           Payments         Recovery            for       Payments    Recovery    FY    FY     FY
                                                                                           Recovered          Rate                        Recovered     Rate     2013   2014   2015




           I, i
and Other Assistance




4 Re:cove:ry rate: targe:ts were: adj u~te:d in FY 2012 to 85 pc:n:c:nt for all programs. consiste:nt with OMB gu idance:.



                                                                                            - 21 ­
   C. In addition, agencies shall report the following information on their payment recapture audit programs, if applicable:

             i. 	   An aging schedule of the amount of overpayments identified through the payment recapture audit program that are
                    outstanding (i.e., overpayments that have been identified but not recovered). Typically, the aging of an overpayment
                    begins at the time the overpayment is detected. Indicate with a note whenever that is not the case.

                    Table 3 provides the aging schedule for the Departm ent's ovetpaym ents that were outstanding (not recovered) as of the end of
                    FY 201 2. As shown in the table. of the approximate $2.5 million in overpayments that were outstanding for more than a year.
                    70 percent were grants. As mentioned, in FY 2013. the Departm ent will continue focusing on improving the recovery rate for
                    grants.

                                                                           Table 3 

                                                        Aging of Cumulative Outstanding Overpayments 



       DOJ Mission-Aligned           (include!:~~~ t;~s made per       Amount Outstanding         Amount Outstanding          Amount Outstanding
                                                                          (0 1 '
                                                                              0                    /6 ,      , 1 Ye,,)-           /oy" 1 ",,)
                                                                                       $2,647                                                   $21 ,767


                                                                                        ~                                                         ~
I ,"" Olh"                                  I
                                                                                                                      :lli:

                                                                                       *
I SI,le: Local, Tribal, eod Olhe,
 AsSistance
                                                    ,
                                                                                     ;:~*'
                                    G",I, eod '                                                                                            $1, 75,
   ,                 ,
I To"l                                                                               ;356,576                                              ~




                                                                         - 22 ­
          ii. 	   A summary of how recovered amounts have been disposed of (if any of this information is not available, indicate by
                  either "Note" or " N/A" in the relevant column or ce ll),

                  Table 4 provides the disposition infonllation for the improper payments the Department recovered in FY 2012, As shown in rhe
                  table, approximately $8,7 million of the approximate $9,1 million recovered (or 96 percent) was renlllled to the original funds
                  from which the payments were made,

                                                                           Table 4
                                                          Disposition of FY 2012 Recovered Funds

                                                                                                            Dis osition
                                                        Improper                      Agency      Payment      Financial                 Office of
 DOJ Mission-              Type of Payment             Payments       Returned to   Expenses to   Recapture Management      Used for        the      Returned
     Aligned       (includes only the types made per   Recovered       Original      Administer    Auditor   Improvement    Original    Inspector     to the
    Proqram                     p"",m~1                inFY201 2         Fund       the Proqram     Fees       Activities   Purpose      General     Treasurv
Adminisirabve,     Commercial                             $571 ,201      $571,201            $0          $0            $0          $0           $0          $0
Technology,        Custodial                                    $0             $0            $0          $0            $0          $0           $0          $0
and Other
Liti atie
        m          Commercial                            $712,859       $712,859             $0          $0            $0          $0           $0          $0
L,w                Commercial                          $3,034,572      $3,034,540            $0          $0            $0          $0           $0         $32
Enforcement
State, Local,      Benefits and Assistance                      $0             $0            $0          $0            $0          $0           $0          $0
Tribal, and        Commercial                                   $0             $0            $0          $0            $0          $0           $0          $0
Other              Grants and Cooperative               $3,363,168     $3,016,890            $0          $0            $0          $0           $0    $346,278
Assistance         Agreements
Prisons and        Commercial                          $1 ,374,451     $1,372,553            $0         $0            $0           $0           $0      $1 ,898
Detention
Total                                                   $9,056,251     $8,708,043            $0          SO            SO          SO           $0    $348,208




                                                                              - 23 ­
O. 	 As applicable, agencies should also report on improper payments identified and recovered
     through sources other than payment recapture audits. For example , agencies could report on
     improper payments identified through statistical samples conducted under the IPIA, agency post­
     payment reviews or audits, Office of the Inspector General reviews, Single Audit reports, self­
     reported overpayments, or reports from the public. Specific information on additional required
     reporting for contracts is included in Section 7 of OMB memorandum M-11-04, issued in
     November 2010. Reporting this information is required for FY 2011 reporting and beyond. If
     previous year information is not available, indicate by a " Note."

    TIle Department' s payment recapture audit program leverages both intemal and extem al efforts to
    identifY improper payments. The repOit ing in Tables 1B through 5 is inclusive of all overpayments,
    regardless of whether they were identifi ed through intemal or extemal sources. Table 5 provides
    infonllation on the overpayments that were identified in the cmTent year (FY 20 12) and previous year
    (FY 2011 ) by source, i.e., through intemal effOit s or by auditors, vendors, or payment recapture audit
    contractors. TIle table also provides the recovery infOimation associated with overpayments identified by
    those sources. The table provides infon llation for FYs 2011 and 2012 only, as agencies were not required
    to track this level of detail prior to FY 2011.

                                                Table 5 

                                  Sources of Identifying Overpayments 





       (e.g.. by the OIG
       or audits for OMB
       Circular


                  Audit




Item VI. Accountability. Any agency that has programs or activities that are susceptible to significant
improper payments shall describe the steps the agency has taken and plans to take (including
time line) to ensure that agency managers, accountable officers (including the agency head), programs,
and States and localities (where appropriate) are held accountable for reducing and recovering
improper payments. Specifically, they should be held accountable for meeting applicable improper
payments reduction targets and establishing and maintaining sufficient internal controls (including an
appropriate control environment) that effectively prevents improper payments from being made and
promptly detects and recovers any improper payments that are made.

Not applicable . Based on the results of the FY 2012 Department-wide risk assessment, there were no
programs susceptible to significant improper payments.




                                                  - 24 ­
Item VII. Agency Information Systems and Other Infrastructure.

    A. 	 Describe whether the agency has the internal controls, human capital, and information
         systems and other infrastructure it needs to reduce improper payments to the levels the
         agency has targeted.

        The results of the FY 2012 Department-wide risk assessment demonstrated that, overall, the
        Department has sufficient internal controls over disbursement activities to prevent improper payments.
        The assessment identified no programs susceptible to significant improper payments.

        Department-wide actions to reduce improper payments are accomplished through an aggressive
        strategy of re-engineering and standardizing business processes, concurrent with the Department’s
        implementation of an integrated financial management system, which is underway. As of the end of
        FY 2012, all Departmental components reported that they had sufficient internal controls, human
        capital, and the information systems and other infrastructure needed to reduce improper payments to
        targeted levels.

        In addition to the Department’s actions to improve agency information systems and infrastructure,
        individual components have taken actions to incorporate additional controls into their financial
        systems to reduce improper payments. For example, in FY 2012, the Federal Prison Industries
        implemented a centralized accounts payable documentation management system. The system
        provides end-to-end automation of invoices and also provides reconciliation, voucher posting,
        workflow for approvals, and detailed reporting and auditing information that can be used to monitor
        payment activities.

    B. 	 If the agency does not have such internal controls, human capital, and information systems
         and other infrastructure, describe the resources the agency requested in its most recent
         budget submission to Congress to establish and maintain the necessary internal controls,
         human capital, and information systems and other infrastructure.

        Not applicable. The continued implementation of the Department’s integrated financial management
        system will complement the Department’s current infrastructure and capabilities to reduce improper
        payments.

Item VIII. Barriers. Describe any statutory or regulatory barriers that may limit the agency’s corrective
actions in reducing improper payments and actions taken by the agency to mitigate the barriers’
effects.

The Department has not identified any statutory or regulatory barriers that limit its corrective actions in
reducing improper payments.

Item IX. Additional Comments. Discuss any additional comments, if any, on overall agency efforts,
specific programs, best practices, or common challenges identified as a result of IPERA
implementation.

The Department recognizes the importance of maintaining adequate internal controls to ensure proper
payments and is committed to the continuous improvement of the overall disbursement management process.
The Department’s top-down approach for implementing the expanded requirements of the IPERA promotes
consistency across the Department, both with regard to conducting the required risk assessment and for
tracking and reporting payment recapture audit activities. In FY 2013, the Department will continue its efforts
to further reduce improper payments, as well as improve the recovery rate for grants.




                                                     - 25 -
This page intentionally left blank.




              - 26 -
                                                                APPENDIX III

                 OFFICE OF THE INSPECTOR GENERAL 

                ANALYSIS AND SUMMARY OF ACTIONS

                  NECESSARY TO CLOSE THE REPORT


      The Office of the Inspector General (OIG) provided a draft of this report to
the Department of Justice. The Department’s response is incorporated in
Appendix I: Comment and Recommendations of this final report. The following
provides the OIG analysis of the response and summary of actions necessary to
close the report.

Recommendation Number:

1.     	 esolved. The Department concurred with our recommendation. This
       R
       recommendation can be closed when subsequent annual compliance
       examination testing verifies that the Department has performed additional
       analytical procedures, across fiscal years, on the information reported in
       the Performance and Accountability Report to identify unusual fluctuations
       that could indicate a reporting error.

2. 	   Resolved. The Department concurred with our recommendation. This
       recommendation can be closed when subsequent annual compliance
       examination testing verifies that the Department has enhanced the quality
       control review process to ensure accurate data is reported and performed
       a completeness check of the data fields provided in the components’
       tracking spreadsheets to identify any “blank” fields that cause incorrect
       calculations or result in information not being pulled into the consolidated
       file.




                                       - 27 -
